Page 2 – Charlene Frizzera


Palmetto’s results did not provide assurance that the FY 2008 DME error rate was accurate.
Palmetto found that 175 of the 250 sampled claims were in error, significantly exceeding the
23 errors found by the CERT contractor. After further review, the CERT contractor agreed with 17
of Palmetto’s additional error determinations (for a total of 40 error determinations) but disagreed
with the remaining 135 error determinations. Most of Palmetto’s error determinations were based
on insufficient documentation to establish medical necessity.

Palmetto’s review determinations differed from those of the CERT contractor because of
(1) incorrect medical necessity determinations by the CERT contractor and (2) differences in review
standards and methodology. Specifically, the CERT contractor agreed that it had made incorrect
determinations on 17 claims after it reviewed Palmetto’s determinations. The differences in review
standards and methodology were due to the CERT contractor’s use of clinical inference to make
medical necessity determinations based on its review of supplier documents, beneficiary claim
histories, and limited medical records. In contrast, officials of Palmetto—as well as other DME
medical review contractors—stated that they required beneficiary medical records to perform
medical reviews and to make medical necessity determinations.

The CERT contractor’s acknowledgment of the additional 17 errors and its use of limited medical
records to infer medical necessity, which was inconsistent with the methodology used by Palmetto
and other DME medical review contractors, cast doubt on the accuracy of the FY 2008 DME error
rate.

We recommend that CMS require the CERT contractor to:

   •   develop a corrective action plan to reduce its number of incorrect determinations and

   •   perform a complex medical review by obtaining and reviewing all medical records from all
       relevant providers to support the medical necessity of DME items.

In comments on our draft report, CMS concurred with our findings and recommendations and
outlined the steps it has taken to begin implementing our recommendations.

Pursuant to the Freedom of Information Act, 5 U.S.C. § 552, Office of Inspector General reports
generally are made available to the public to the extent the information in the report is not subject to
exemptions in the Act. Accordingly, this report will be posted on the Internet at http://oig.hhs.gov.

Please send us your final management decision, including any action plan, as appropriate, within 60
days. If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Joseph J. Green, Assistant Inspector General for Financial Management and
Regional Operations, at (202) 619-1157 or through e-mail at Joe.Green@oig.hhs.gov. Please refer
to report number A-01-09-00500 in all correspondence.


Attachment
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




 INDEPENDENT CONTRACTOR’S
 REVIEW OF DURABLE MEDICAL
 EQUIPMENT CLAIMS FROM THE
      FISCAL YEAR 2008
 COMPREHENSIVE ERROR RATE
      TESTING PROGRAM




                    Daniel R. Levinson
                     Inspector General

                        May 2009
                      A-01-09-00500
                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                                 EXECUTIVE SUMMARY

BACKGROUND

The Centers for Medicare & Medicaid Services (CMS) established the Comprehensive Error
Rate Testing (CERT) program to produce a Medicare fee-for-service error rate. Using the results
of the CERT program, CMS annually submits to Congress an estimate of the amount of improper
payments for Medicare fee-for-service claims pursuant to the Improper Payments Information
Act of 2002 (P.L. No. 107-300).

To determine the error rate, CMS’s CERT contractor conducts medical record reviews of a
random sample of paid claims. CMS requires the CERT contractor to make medical review
decisions in accordance with CMS’s written policies, including those in its “Program Integrity
Manual.” For medical reviews of durable medical equipment (DME) claims, the “Program
Integrity Manual” states that information in the beneficiary’s medical record must support the
item’s medical necessity.

To strengthen its confidence in the CERT review findings and provide assurance that the
reported fiscal year (FY) 2008 DME error rate was accurate, CMS contracted with Palmetto
GBA (Palmetto), an independent medical review organization, to perform a random, independent
review of the CERT contractor’s payment determinations. Palmetto’s review consisted of a
subsample of 250 paid claims from the sample of 14,221 claims that the CERT contractor had
reviewed in determining the FY 2008 DME error rate. CMS’s contract required Palmetto to
follow guidance in national coverage determinations (NCD), local coverage determinations
(LCD), and CMS manuals and to use the same documentation that the CERT contractor had used
to assess whether payments for DME items met Medicare medical necessity and documentation
requirements.

We conducted this review at the request of the Senate Committee on Finance.

OBJECTIVES

Our objectives were to determine whether (1) Palmetto complied with the CMS contract in
performing medical reviews of a subsample of claims from the FY 2008 CERT DME sample and
(2) Palmetto’s results provided assurance that the FY 2008 DME error rate was accurate.

SUMMARY OF FINDINGS

Palmetto complied with its CMS contract in performing medical reviews of a subsample of
claims from the FY 2008 CERT DME sample. Using the same documentation that the CERT
contractor had used, Palmetto followed the protocols in the applicable NCDs, LCDs, and CMS
manuals to determine whether the DME items in the subsample were medically necessary and
adequately documented.

Palmetto’s results did not provide assurance that the FY 2008 DME error rate was accurate.
Palmetto found that 175 of the 250 sampled claims were in error, significantly exceeding the

                                                i
23 errors found by the CERT contractor. After further review, the CERT contractor agreed with
17 of Palmetto’s additional error determinations (for a total of 40 error determinations) but
disagreed with the remaining 135 error determinations. Most of Palmetto’s error determinations
were based on insufficient documentation to establish medical necessity.

Palmetto’s review determinations differed from those of the CERT contractor because of
(1) incorrect medical necessity determinations by the CERT contractor and (2) differences in
review standards and methodology. Specifically, the CERT contractor agreed that it had made
incorrect determinations on 17 claims after it reviewed Palmetto’s determinations. The
differences in review standards and methodology were due to the CERT contractor’s use of
clinical inference to make medical necessity determinations based on its review of supplier
documents, beneficiary claim histories, and limited medical records. In contrast, officials of
Palmetto—as well as other DME medical review contractors—stated that they required
beneficiary medical records to perform medical reviews and make medical necessity
determinations.

The CERT contractor’s acknowledgment of the additional 17 errors and its use of limited
medical records to infer medical necessity, which was inconsistent with the methodology used by
Palmetto and other DME medical review contractors, cast doubt on the accuracy of the FY 2008
DME error rate. We issued a report on the medical review of DME claims for the fiscal year
(FY) 2006 CERT program that noted that the FY 2006 DME error rate likely would have been
significantly higher if the CERT contractor had reviewed additional records from physicians and
other health care providers and information obtained from beneficiary interviews. Conversely,
Palmetto would likely have found fewer errors in the subsample of FY 2008 CERT DME claims
if the CERT contractor had obtained sufficient medical records to determine medical necessity.

RECOMMENDATIONS

We recommend that CMS require the CERT contractor to:

   •   develop a corrective action plan to reduce its number of incorrect determinations and

   •   perform a complex medical review by obtaining and reviewing all medical records from
       all relevant providers to support the medical necessity of DME items.

CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

In comments on our draft report, CMS concurred with our findings and recommendations and
outlined the steps it has taken to begin implementing our recommendations. In a technical
comment, CMS requested clarification of the number of sampled claims reviewed. We met with
CMS officials and resolved their technical comment. The subsample contained 250 claims.

CMS’s comments are included in their entirety as the Appendix.




                                               ii
                                                  TABLE OF CONTENTS

                                                                                                                              Page

INTRODUCTION................................................................................................................1

          BACKGROUND .......................................................................................................1
              Medicare Error Rate Program........................................................................1
              Durable Medical Equipment ..........................................................................1
              Claim Review Activities ................................................................................1
              Medical Reviews of Claims in the Comprehensive Error Rate
                Testing Program..........................................................................................2
              Independent Medical Review Contractor ......................................................2
              Congressionally Requested Review...............................................................3

          OBJECTIVES, SCOPE, AND METHODOLOGY...................................................3
               Objectives ......................................................................................................3
               Scope..............................................................................................................3
               Methodology ..................................................................................................3

FINDINGS AND RECOMMENDATIONS ......................................................................4

          PROGRAM REQUIREMENTS................................................................................5
              Medicare Payment Requirements ..................................................................5
              Medical Reviews of Durable Medical Equipment Claims ............................5

          COMPLIANCE WITH CONTRACT........................................................................5

          ASSURANCE OF ERROR RATE ACCURACY.....................................................5
               Palmetto’s Error Determinations ...................................................................5
               Response to Palmetto’s Additional Error Determinations.............................6

          DIFFERENCES IN REVIEW DETERMINATIONS ...............................................7

          CONCLUSION..........................................................................................................8

          RECOMMENDATIONS...........................................................................................8

          CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS ..............8

APPENDIX

          CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS




                                                                    iii
                                            INTRODUCTION

BACKGROUND

Medicare Error Rate Program

The Centers for Medicare & Medicaid Services (CMS), which administers the Medicare
program, established the Comprehensive Error Rate Testing (CERT) program to produce a
Medicare fee-for-service error rate. An error is the difference between the amount that Medicare
paid to a health care provider and the amount that it should have paid. Medicare will pay only
for items and services that are medically necessary. Using the results of the CERT program,
CMS annually submits to Congress an estimate of the amount of improper payments for
Medicare fee-for-service claims pursuant to the Improper Payments Information Act of 2002
(P.L. No. 107-300).

Durable Medical Equipment

Durable medical equipment, prosthetics, orthotics, and supplies (DME) include items such as
wheelchairs, hospital beds, oxygen, and medical and surgical supplies. Pursuant to CMS’s
“Medicare Claims Processing Manual,” Pub. No. 100-04, chapter 20, section 10.1.1, Medicare
Part B covers DME. CMS defines DME as equipment that can withstand repeated use, is used
primarily and customarily to serve a medical purpose, generally is not useful to a person in the
absence of an illness or injury, and is appropriate for use in the home.

Claim Review Activities

CMS’s “Medicare Program Integrity Manual,” Pub. No. 100-08 (Integrity Manual), chapter 3,
section 3.4.5, defines three types of claim review activities: automated prepayment review
(performed by computers), routine prepayment and postpayment reviews (performed by
nonmedical professionals), and complex prepayment and postpayment medical reviews
(performed by licensed medical professionals). Only a complex medical review requires that a
licensed medical professional evaluate medical records to determine whether a service or an item
is covered and medically necessary. Pursuant to the Integrity Manual, a medical reviewer who
performs a complex medical review must follow national coverage determinations (NCD) and
local coverage determinations (LCD) 1 and must consider the beneficiary’s clinical condition as
indicated by the beneficiary’s medical records.

To identify program vulnerabilities, four DME Medicare administrative contractors currently
conduct prepayment and postpayment medical reviews based on analyses of DME claim data. In
addition, three DME program safeguard contractors (PSC) conduct medical review for early
detection, prevention, intervention, and investigation of potential fraud.


1
 CMS develops NCDs to describe the circumstances for nationwide Medicare coverage of specific medical services,
procedures, and devices. Medicare contractors develop LCDs to specify the clinical circumstances under which
services are considered reasonable and necessary in their jurisdictions.


                                                       1
Medical Reviews of Claims in the Comprehensive Error Rate Testing Program

CMS’s CERT contractor is AdvanceMed, a PSC. As part of the Medicare error rate process, the
CERT contractor conducts medical record reviews of a random sample of paid claims. CMS’s
contract requires that the CERT contractor make medical review decisions in accordance with
the Integrity Manual; section 7 of the PSC Umbrella Statement of Work; and applicable
guidance, such as NCDs, LCDs, and CMS coding manuals.

On August 22, 2008, we issued a report on the medical review of DME claims for the fiscal year
(FY) 2006 CERT program. 2 That report highlighted differences between the CERT contractor’s
medical review methodology and the methodology that an independent medical review
contractor used to make medical necessity determinations. The most significant difference in the
methodology that the two contractors used to make their medical necessity determinations was
that the CERT contractor applied clinical inference to the limited medical records available from
suppliers, whereas the independent medical review contractor reviewed the full medical records
available from physicians and did not rely on clinical inference.

CMS generally agreed with the recommendations in our report, which included requiring the
CERT contractor to review all available supplier documentation and all medical records
necessary to determine compliance with applicable medical necessity requirements. In its
response, CMS stated that beginning with the FY 2007 improper payment report period, the
CERT contractor had asked both physicians and suppliers for supporting information on DME
claims.

Independent Medical Review Contractor

In September 2008, CMS contracted with Palmetto GBA (Palmetto) 3 to perform an independent
review of a subsample of DME claims that the CERT contractor had reviewed as part of the
FY 2008 DME error rate process. The purpose of Palmetto’s review, as stated in the “CMS
Financial Report, Fiscal Year 2008,” was to “strengthen our confidence in the CERT review
findings and assure the accuracy of the reported error rate.” CMS’s contract required Palmetto to
follow guidance in NCDs; LCDs; and CMS manuals, including the Integrity Manual, and to use
the same documentation that the CERT contractor had used to assess whether payments for DME
items met Medicare medical necessity and documentation requirements. With the exception of
the requirement that Palmetto use the same documentation that the CERT contractor used, these
review requirements are consistent with the definition of a complex medical review in the
Integrity Manual.




2
 “Medical Review of Claims for the Fiscal Year 2006 Comprehensive Error Rate Testing Program”
(A-01-07-00508).
3
 Palmetto has been a Medicare Part A and Part B contractor since the Medicare program began. Palmetto conducted
prepayment and postpayment medical reviews of DME claims from January 1993 to March 2006, when the
responsibility for all medical review activities transitioned to PSCs.

                                                      2
Congressionally Requested Review

We conducted this review at the request of the Senate Committee on Finance.

OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

Our objectives were to determine whether (1) Palmetto complied with the CMS contract in
performing medical reviews of a subsample of claims from the FY 2008 CERT DME sample and
(2) Palmetto’s results provided assurance that the FY 2008 DME error rate was accurate.

Scope

Our review covered Palmetto’s evaluation of a subsample of 250 paid claims from the sample of
14,221 DME claims that the CERT contractor had reviewed in determining the FY 2008 DME
error rate.

We limited our review of internal controls to obtaining an understanding of CMS’s written
policies regarding medical reviews and of Palmetto’s adherence to those policies.

We performed our fieldwork at AdvanceMed in Richmond, Virginia, and at Palmetto in
Columbia, South Carolina, during October and November 2008.

Methodology

To accomplish our objectives, we:

   •    reviewed Medicare requirements and CMS’s policies regarding medical reviews,
        including the requirements detailed in the Integrity Manual and the PSC Umbrella
        Statement of Work;

   •    reviewed CMS’s contracts with both the CERT contractor and Palmetto;

   •    interviewed Palmetto officials to obtain an understanding of their medical review
        procedures;

   •    monitored all correspondence between CMS and Palmetto to ensure that Palmetto
        performed independent medical reviews;

   •    reviewed the medical records and associated documents that the CERT contractor had
        provided to Palmetto for medical reviews;

   •    compared Palmetto’s results with the CERT contractor’s results;



                                                3
   •   participated in a meeting with Palmetto and the CERT contractor to discuss differences in
       medical review determinations;

   •   discussed with officials of the four DME Medicare administrative contractors the
       methods they used for postpayment medical reviews; and

   •   discussed the results of our review with CMS officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                         FINDINGS AND RECOMMENDATIONS

Palmetto complied with its CMS contract in performing medical reviews of a subsample of
claims from the FY 2008 CERT DME sample. Using the same documentation that the CERT
contractor had used, Palmetto followed the protocols in the applicable NCDs, LCDs, and CMS
manuals to determine whether the DME items in the subsample were medically necessary and
adequately documented.

Palmetto’s results did not provide assurance that the FY 2008 DME error rate was accurate.
Palmetto found that 175 of the 250 sampled claims were in error, significantly exceeding the
23 errors found by the CERT contractor. After further review, the CERT contractor agreed with
17 of Palmetto’s additional error determinations (for a total of 40 error determinations) but
disagreed with the remaining 135 error determinations. Most of Palmetto’s error determinations
were based on insufficient documentation to establish medical necessity.

Palmetto’s review determinations differed from those of the CERT contractor because of
(1) incorrect medical necessity determinations by the CERT contractor and (2) differences in
review standards and methodology. Specifically, the CERT contractor agreed that it had made
incorrect determinations on 17 claims after it reviewed Palmetto’s determinations. The
differences in review standards and methodology were due to the CERT contractor’s use of
clinical inference to make medical necessity determinations based on its review of supplier
documents, beneficiary claim histories, and limited medical records. In contrast, officials of
Palmetto—as well as other DME medical review contractors—stated that they required
beneficiary medical records to perform medical reviews and make medical necessity
determinations.

The CERT contractor’s acknowledgment of the additional 17 errors and its use of limited
medical records to infer medical necessity, which was inconsistent with the methodology used by
Palmetto and other DME medical review contractors, cast doubt on the accuracy of the FY 2008
DME error rate.




                                               4
PROGRAM REQUIREMENTS

Medicare Payment Requirements

Section 1833(e) of the Social Security Act (the Act) precludes payment to any provider of
services or other person without information necessary to determine the amount due the provider.

Section 1862(a)(1)(A) of the Act states that no Medicare payment may be made for items or
services that are not reasonable and necessary for diagnosing or treating illness or injury or for
improving the functioning of a malformed body member.

Medical Reviews of Durable Medical Equipment Claims

The Integrity Manual, chapter 5, section 5.7, states: “For any DME item to be covered by
Medicare, the patient’s medical record must contain sufficient documentation of the
patient’s medical condition to substantiate the necessity for the type and quantity of items
ordered and for the frequency of use or replacement (if applicable).”

COMPLIANCE WITH CONTRACT

Palmetto complied with the CMS contract in performing medical reviews of a subsample of
claims from the FY 2008 CERT DME sample. Using the same documentation that the CERT
contractor had used, Palmetto followed the protocols in the applicable NCDs, LCDs, and CMS
manuals to determine whether the DME items in the subsample were medically necessary and
adequately documented.

ASSURANCE OF ERROR RATE ACCURACY

Palmetto’s results did not provide assurance that the FY 2008 DME error rate was accurate.
Palmetto found that 175 of the 250 sampled claims were in error, more than seven times the 23
erroneous claims that the CERT contractor had found. Palmetto agreed with the CERT
contractor that the 23 claims were in error.

Palmetto’s Error Determinations

The table on the next page shows the types of documentation that Palmetto received from the
CERT contractor and Palmetto’s determinations based on that documentation. Specifically,
Palmetto determined that 160 of the 175 erroneous claims had insufficient documentation to
establish medical necessity and that the remaining 15 claims had sufficient documentation to
establish that the DME items were not medically necessary.




                                                 5
            Table: Documentation Reviewed and Palmetto’s Error Determinations

                                                            No. of
            Documentation Reviewed                        Erroneous                  Determination
                                                           Claims

    Supplier documents 4 only                                   16          Insufficient documentation

    Supplier documents and physician
                                                              107           Insufficient documentation
    orders or prescriptions
    Supplier documents and limited medical
                                                                37          Insufficient documentation
    records

        Subtotal                                              160

                                                                            Sufficient documentation to
    Supplier documents and adequate
                                                               15 5         determine that DME was not
    medical records
                                                                            medically necessary
        Total                                                 175

Response to Palmetto’s Additional Error Determinations

Because of the significant number of differences between Palmetto’s determinations and the
CERT contractor’s determinations, we participated in a dispute resolution process with medical
review staff from Palmetto, the CERT contractor, and CMS. During that process, the CERT
contractor agreed with 17 of Palmetto’s 152 additional error determinations but disagreed with
135.

Agreement on 17 Claims

The CERT contractor agreed with Palmetto that 17 claims were in error:

    •   For 10 claims, the documentation was insufficient to support the medical necessity and/or
        utilization requirements specified by the applicable LCDs.

    •   For seven claims, the medical records were sufficient to determine that the items were not
        medically necessary.



4
 Supplier documents include certificates of medical necessity (CMN), supplier notes, and proof of delivery
documents.
5
 For 2 of the 15 claims, both the CERT contractor and Palmetto agreed that the claims were in error. For 7 of the 15
claims, the CERT contractor agreed with Palmetto’s error determinations after further review. For 6 of the 15
claims, the CERT contractor disagreed with Palmetto’s error determinations.

                                                         6
Clinical Inference of Medical Necessity Disputed on 135 Claims

The CERT contractor disagreed with Palmetto that 135 claims were in error on the grounds that
the supplier documents, limited medical records, and beneficiary claim histories were sufficient
to reasonably infer that the DME items were medically necessary. CMS asked Palmetto to
review the CERT contractor’s written response to Palmetto’s determinations. Palmetto
maintained that all 135 claims had been paid in error. Specifically, Palmetto concluded:

   •   For 129 claims, the documentation was insufficient to demonstrate medical necessity
       based on applicable NCD, LCD, and Integrity Manual requirements.

   •   For six claims, the documentation was sufficient to support its determinations that the
       items were not medically necessary.

DIFFERENCES IN REVIEW DETERMINATIONS

Palmetto’s review determinations differed from those of the CERT contractor because of (1) the
CERT contractor’s incorrect medical necessity determinations and (2) differences in review
standards and methodology. After its initial review, the CERT contractor believed that only 23
claims were in error. However, at the end of the claim dispute resolution process, both
contractors agreed that 40 claims were in error. The CERT contractor acknowledged that it had
made incorrect determinations on 17 claims.

For the 135 claims in dispute, Palmetto’s review determinations differed from those of the CERT
contractor because of fundamental differences between the documentation standards and medical
review methodology that the two contractors used to determine the medical necessity of DME
items. Specifically, whereas Palmetto required sufficient medical records to support medical
necessity determinations, the CERT contractor stated that it could infer medical necessity and
compliance with applicable NCD and LCD requirements using supplier documents, beneficiary
claim histories (e.g., hospital and physician claims), and limited medical records. Thus, the
CERT contractor’s medical reviews did not generally include obtaining sufficient medical
records.

In contrast, in its prior role as a DME medical review contractor, Palmetto obtained and relied
extensively on beneficiary medical records to make medical review determinations. During the
dispute resolution process, Palmetto officials told us that when they reviewed a claim to
determine medical necessity, they required beneficiary medical records to support the
information on the CMN and/or physician’s order. These officials stated that they could not
make a decision regarding medical necessity without medical records. Accordingly, Palmetto
based 160 of its 175 error determinations on insufficient documentation to determine medical
necessity. If the CERT contractor had obtained sufficient medical records to determine medical
necessity, Palmetto would likely have had fewer error determinations.

To determine whether the standards and methodology that Palmetto used were consistent with
those that CMS’s other DME medical review contractors use, we interviewed medical review
officials from the four DME Medicare administrative contractors. These officials stated that they

                                                7
do not rely solely on the CMN and/or the physician’s order to make postpayment medical review
determinations. Instead, they said that they perform medical reviews that rely extensively on
beneficiary medical records.

CONCLUSION

Palmetto’s results did not provide assurance that the FY 2008 DME error rate was accurate. The
CERT contractor’s failure to identify 17 errors and its use of limited medical records to infer
medical necessity, which was inconsistent with the methodology used by Palmetto and other
DME medical review contractors, cast doubt on the accuracy of the FY 2008 DME error rate.

For most of the 250 claims in our subsample, both the CERT contractor and Palmetto based their
medical necessity determinations on their review of supplier documents and limited medical
records. Our prior report noted that the FY 2006 DME error rate likely would have been
significantly higher if the CERT contractor had reviewed additional records from physicians and
other health care providers and information obtained from beneficiary interviews. Conversely,
Palmetto would likely have found fewer errors in the subsample of FY 2008 CERT DME claims
if the CERT contractor had obtained sufficient medical records to determine medical necessity.

RECOMMENDATIONS

We recommend that CMS require the CERT contractor to:

   •   develop a corrective action plan to reduce its number of incorrect determinations and

   •   perform a complex medical review by obtaining and reviewing all medical records from
       all relevant providers to support the medical necessity of DME items.

CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

In comments on our draft report, CMS concurred with our findings and recommendations and
outlined the steps it has taken to begin implementing our recommendations. In a technical
comment, CMS requested a clarification of the number of sampled claims reviewed. We met
with CMS officials and resolved their technical comment. The subsample contained 250 claims.

CMS’s comments are included in their entirety as the Appendix.




                                               8
APPENDIX
                                                                                                              APPENDIX



(..                                                                                                           Page 1 of 3
  .,Sf,RVIn.;S




                       DEPARTMENT OF HEALTH & HUMAN SERVICES 0                                     Centers for Medicare & Medicaid Services

"'.t
 "'v
     :;t.
 :.,il'd30                                                           ti F~" r~ r7 ; \.J ~::~ l:~
                                                                                                   200 Independence Avenue SW
                                                                                                   Washington, DC 20201
                                                                2009 APR - 2 Mî 7: 38

                                                                t~, ¡ : i v ¡.~ .._; "
                                                                           GENEH/\L

                 DATE:             MA 31 2009
                                   1,1. ..



                 TO:              Daniel R. Levinson
                                  Inspector General .
                            (\1 II,j Æl.~"~1'
                 FROM:      ~~rlene Frizzera
                                  Acting Administrator

                 SUBJECT: Offce ofInspector General (OIG) Draft Report: "Independent Contractor's
                                  Review of Durable Medical Equipment Claims From the Fiscal Year 2008
                                  Comprehensive Error Rate Testing Program" (A-O 1-09-00500)


                 Thank you for the opportunity to review and comment on the OIG's draft report, "Independent
                 Contractor's Review of                 Durable Medical Equipment Claims From the Fiscal Year 2008
                 Comprehensive Error Rate Testing Program." The Centers for Medicare & Medicaid Services
                 (CMS) appreciates the time and resources the OIG has invested to determine the validity of        the
                 Comprehensive EtTOr Rate Testing (CERT) durable medical equipment (DME) error rate
                 reviews for fiscal year (FY) 2008.

                 As you know, CMS established the CERT program to comply with the Improper Payments
                 Information Act of2002. The CERT program calculates the Medicare fee-for-service (FFS)
                 error rate and estimate of improper claim payments using a methodology approved by the OIG.
                 The CERT methodology includes randomly selecting a sample of approximately 120,000
                 submitted claims, requesting medical records from providers who submitted the claims, and
                 reviewing the claims and medical records for compliance with Medicare coverage, coding, and
                 billing rules.


                 The CMS is committed to continually reviewing and refining its processes to improve the
                 Medicare FFS error rate. This report, in addition to OIG's earlier report on the FY 2006 CERT
                 DME error rate (A-OI-07-00508), has helped identify several areas for improvement, particularly
                 regarding CMS guidance to contractors in its manuals. After the OIG's earlier report on the FY
                 2006 CERT DME error rate, we instructed the CERT contractor to change the way they request
                 documentation for DME claims. Now, the CERT contractor requests ordering physician medical
                 records from the supplier. If  the supplier fails to submit these records, the CERT contractor
                 requests the records directly from the ordering physician.

                 In addition, CMS initiated its own internal review through an independent contractor of the FY
                 2008 DME error rate. We also reviewed our manual instructions to the contractors. Based on
                 our own analysis and the OIG's findings, CMS has determined that further direction needs to be
                                                                                                          APPENDIX
                                                                                                          Page 2 of 3
Page 2 - Daniel R. Levinson

given to CMS contractors on our manual instructions. Contractors have interpreted manuals
differently, especially regarding the use of clinical judgment. Our internal review found that
there are two distinct interpretations that could be made and would allow a reviewer to arrive at
different payment determinations. '
All contractors request the same types of                         medical record documentation. However, CMS'
Program Integrity Manual (PIM) is vague regarding how much clinical judgment contractors can
use when reviewing this documentation. As a result, the CERT contractor relied more heavily
on clinical judgment than other contractors when making payment determinations in accordance
with one section of our manuals. (PIM, Chapter 3, §3.4.5, Section C -¡4) For complex
postpayment medical review, the DME Medicare Administrative Contractors (DME MACs),
strictly applied another section of our manuals and therefore required more extensive medical
records to be present in order to determine medical necessity. (P 1M, Chapter 5, §5.7) Both
interpretations are reasonable since our manuals allow reviewers to make a determination if they
believe the submitted documentation and other available information provides suffcient
information to determine medical necessity. As indicated in the OIG draft report, it is likely that
additional documentation would have supported the payment decision made by the CERT
contractor based on clinical judgment in many cases.

The CMS wil revise its manuals to clarify requirements for reviewing documentation to promote
uniform interpretation of our policies across all medical reviews performed by Medicare
contractors and to reconcile any apparent conflicts between different sections of the manuals.

Additionally, CMS has provided direction to the CERT contractor regarding the use of clinical
judgment. This direction clarified that clinical judgment cannot supersede documentation
requirements in eMS statute, regulations, policies, or manuals. CMS plans to incorporate this
clarification into the PIM.

The CMS goal is to pay the right amount to a legitimate provider, for correctly  coded, medically
necessary services, provided to an eligible beneficiary in an appropriate setting. In particular,
CMS has set the goal of reducing the claims payment error rate to 3.7 percent by 2009. To
achieve those error rate goals, we have realigned our resources by combining three divisions -
Medical Review, Recovery Audit Operations, and Error Rate Measurement - into a new group
within the Offce of Financial Management named the Provider Compliance Group. This
realignment wil ensure that those entities that have primary responsibility for complex medical
review activities are applying Medicare rules consistently and accurately.

U sing the findings from this and the prior report, CMS is also planning to conduct an overall
evaluation and assessment of                   the CERT DME process to determine whether changes should be
made. For example, one of our current projects for the FY 2009 error rate is to conduct
beneficiary and provider interviews for claims for DME items, such as oxygen or power mobility
devices, that have been identified as highly vulnerable to fraud to verify the legitimacy of those
claims. Given the current DME sample size, it would be very resource-intensive for us to do this
type of review on all DME claims. Based on findings from this project, CMS wil investigate the
feasibility and value of incorporating these enhanced reviews into the CER T process. Any
                                                                                      APPENDIX
                                                                                      Page 3 of 3
 Page 3 - Daniel R. Levinson

 changes that are deemed necessary should be made to ensure adherence with the CMS manuals
 in order to assure consistency and accuracy.

  Our detailed comments onthe report recommendations follow. In addition, we have included
. one technical comment regarding the number of claims reviewed by Palmetto.

 OIG Recommendation

 Require the CERT contractor to develop a corrective action plan to reduce its number of
 incorrect determinations.

 CMS Response

 The CMS concurs and is working with the CMS contracting office to formally request the CERT
 contractor to develop a corrective action plan. CMS wil monitor the contractor's corrective
 actions and their progress toward reducing incorrect determinations.

 The CMS has already taken steps to improve the CERT contractor's medical review quality
                                          revising the CERT contractor's statement of
. control process. We are in the process of                                           work to
 increase the number of quality assurance reviews conducted for DME claims. Additionally, the
 CERT contractor has, on its own initiative, implemented an internal quality review ofDME
 claims included in the 2009 improper payment report period.

 OIG Recommendation

 Require the CERT contractor to perform a complex medical review by obtaining and reviewing
 all medical records from all relevant providers to support the medical necessity ofDME items.

 CMS Response

 The CMS agrees with the OIG that it is important that the Medicare contractors obtain and
 review all required medical records when making payment determinations. As discussed above,
 CMS has directed the CER T contractor that clinical judgment cannot be used to supersede
 specific documentation requirements in statute, regulations, policies, or manuals. CMS wil
 ensure that all claims in the FY 2009 improper payment measurement are reviewed in
 accordance with this policy,.

 Technical Comment

 The OIG states the sample of claims reviewed by Palmetto was 250 claims. According to our
 records, the number of claims reviewed by Palmetto was actually 299. CMS respectfully
 requests a clarification of the number of sampled claims reviewed for the study.
